September 1, 2009

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Management Advisory – MVA Reduction Target-Setting Process
         (Report Number HM-MA-09-002)

This report presents the results of our work in response to your request that we
determine the best practices used by private companies to establish motor vehicle
accident (MVA) reduction targets (Project Number 09YG010HM000). The objective
was to determine whether best practices included the use of MVA frequency rates
achieved in the same period last year (SPLY) and other factors such as geographic
locations, rural versus city routes, and weather. You also asked that we determine how
company units (regions, divisions, etc.) are held accountable for achieving corporate
MVA reduction targets. This review was performed under the Value Proposition
Agreement between Employee Resource Management and the U.S. Postal Service
Office of Inspector General (OIG) Human Capital Directorate. This review addresses
the OIG’s financial risk factor. See Appendix A for additional information about this
review.

Conclusion

The two benchmarked companies are comparable to the Postal Service because they
use the same best practices to establish MVA reduction targets and do not consider
geographic locations, rural versus city routes, weather, and other factors when setting
targets.1

Benchmarking Results

Best practices the two benchmarked companies use to establish MVA reduction targets
included the use of MVA frequency rates achieved in the SPLY, a mileage/kilometer
driven metric, and root cause analyses. The companies did not consider factors such
as geographic location, rural versus city routes, and weather when establishing MVA
reduction targets. Instead, they included geographic location and weather, along with
human behavior, in their MVA root cause analyses. Several research documents cited
identifying root causes as an important factor. None of the research documents,
however, discussed MVA target setting.2



1
  We contacted 47 companies with fleet vehicles from a variety of industries, including car rentals, utilities,
communications, and retail and delivery services. Only two of the 47 companies agreed to benchmark with us.
2
  The documents referenced MVA reduction targets but did not discuss the process for establishing them.
MVA Reduction Target-Setting Process                                        HM-MA-09-002




The Postal Service’s use of a mileage driven metric to determine its MVA reduction
target is also comparable to what private companies use. In fact, the widespread use of
this metric has not changed over time. Other best practices the two benchmarked
companies and the Postal Service use include employee incentives and internal
controls. See Appendix B for the detailed analyses on benchmarking results and
Appendix C for an analysis and listing of research documents.

The purpose of this report was to provide information; therefore, we are not making any
recommendations.

Management’s Comments

Management's review of the discussion draft resulted in an agreement to waive a formal
briefing and the draft report comment period. Management's formal letter had no
additional comments. Management’s comments, in their entirety, are included in
Appendix D.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2100.


   E-Signed by Office of Inspector General
     VERIFY authenticity with ApproveIt



Andrea Deadwyler
Acting Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Jeannine H. Turenne
    Bill Harris




                                             2
MVA Reduction Target-Setting Process                                                                 HM-MA-09-002




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is obligated under the Occupational Safety and Health
Administration’s (OSHA) “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the Occupational Safety and Health Act of 1970.
Postal Service policy also outlines the agency’s commitment to integrating safe work
practices into all of its services.3

The Postal Service uses the American National Standards Institute method for
calculating MVA frequency rates to derive motor vehicle fleet and passenger accident
rates. The rates can determine the extent of the MVA problem, the need for accident
prevention programs, and the relative effectiveness of accident prevention activities.
The MVA frequency rate is a ratio of accidents per one million miles. It is calculated
using the actual number of MVAs, times one million miles, divided by the number of
actual miles driven.4

When setting targets, the Postal Service’s overall objective is to improve the MVA
reduction rate from the SPLY. The Field Operations Requirements and Planning
(FORP) Group establishes national and unit MVA reduction targets annually.
Headquarters Vice Presidents; Area Vice Presidents; management associations5; the
Vice President, Employee Resource Management; and the Director, Safety
Environmental and Performance Management, provide input to the FORP. The Chief
Operating Officer and Deputy Postmaster General must approve all MVA targets.

For fiscal years (FY) 2007 and 2008, the Postal Service’s MVA frequency rate was 9.79
and 9.52, respectively. The targets were 9.9 and 9.8, indicating they exceeded the
targets. For FY 2009, the MVA reduction target is 9.8. As of the third quarter of FY
2009, their frequency rate is 9.13, indicating they are on target.

OBJECTIVES, SCOPE, AND METHODOLOGY

One objective was to determine if best practices private companies use to establish
MVA reduction targets included frequency rates achieved in the SPLY and other factors
such as geographic locations, rural versus city routes, and the weather. We also
determined how the company units were held accountable for achieving corporate MVA
reduction targets.




3
  Employee and Labor Relations Manual, Section 811.22, Vision Statement, March 2008.
4
  The actual miles driven are comprised of mileage from postal-owned vehicles, personally owned vehicles used for
rural routes, and personally owned vehicles used for Postal Service purposes as recorded in eTravel, and rental cars.
5
  The management associations are the National League of Postmasters of the United States, the National
Association of Postmasters of the United States, and the National Association of Postal Supervisors.


                                                          3
MVA Reduction Target-Setting Process                                           HM-MA-09-002




To accomplish our objectives we interviewed and obtained relevant documents from
Postal Service officials responsible for the MVA reduction target-setting process. We
also identified 47 companies with motor vehicle fleets representing a variety of
industries. This included utility, communication, car rental, retail and delivery service,
and insurance companies. Only two of the 47 companies agreed to participate in the
benchmarking study and asked not to be identified. Information obtained from the two
benchmark partners included factors used to establish MVA reduction targets including
frequency rates achieved in the SPLY, geographic locations, rural versus city routes,
and the weather. We also obtained information relative to how company units were
held accountable for achieving corporate MVA reduction targets. See Appendix B for a
complete list of information obtained.

Additionally, we contacted and visited the websites of 13 organizations and offices listed
below to obtain documents relative to MVA target-setting processes. Our efforts yielded
minimal information.

•   Network of Employers for Traffic Safety
•   National Highway Traffic Safety Administration
•   National Safety Council
•   Workforce Management
•   The Conference Board
•   American Productivity and Quality Center
•   National Institute for Occupational Safety and Health
•   National Transportation Safety Board
•   National Center for Statistics and Analysis
•   Federal Highway Administration
•   Transportation Research Board
•   Iowa Department of Transportation
•   South Carolina Department of Public Safety

Due to the low response rate in our benchmarking initiative and document search, we
conducted an extensive search of the World Wide Web and identified 13 documents
related to the audit objectives. See Appendix C for an analysis and listing of research
documents.

We conducted this review from December 2008 through September 2009 in accordance
with the President’s Council on Integrity and Efficiency, Quality Standards for
Inspections. We discussed our observations and conclusions with management
officials on April 9 and June 10, 2009, consistent with our Value Proposition Agreement.
We included management’s comments, as appropriate.




                                             4
MVA Reduction Target-Setting Process                         HM-MA-09-002




PRIOR AUDIT COVERAGE

There is no prior audit coverage related to our objective.




                                             5
MVA Reduction Target-Setting Process                                                                      HM-MA-09-002




                                 APPENDIX B: DETAILED ANALYSIS

 Best Practices Used By Benchmark Companies and the Postal Service Related to
                            MVA Reduction Targets

Factor                            Company 1                     Company 2                Postal Service

MVA frequency rates achieved
in the SPLY                       Yes                           Yes                      Yes

Geographic location, rural
versus city route, and weather    No                            No                       No

                                  Yes - Conducted at            Yes - Conducted at       Yes - Conducted at field
Root Cause Analysis               corporate level6              regional level           level

                                  Yes - Number of severe        Yes - Number of
                                  MVAs per million miles        MVAs per 100,000         Yes - Number of MVAs
Mileage-driven Metric             driven                        kilometers driven        per million miles driven

                                                                Yes - Non-monetary
                                                                (annual pins and
                                                                plaques every five       Yes - Monetary -
                                  Yes - Monetary - Units        years) - Regions and     Headquarters, Areas,
Employee                          required to meet or           directorships required   and Districts required to
Accountability/Incentives         exceed corporate target       to meet targets          meet corporate target

Target Setting                    Yes - Corporate level         Yes - Regional level7    Yes - Corporate level

                                  Yes - MVA data                Yes - MVA data           Yes - MVA data recorded
                                  recorded and tracked by       recorded and tracked     and tracked by
Internal Controls                 specialists                   by specialists           specialists

                                  Yes - Target based on
                                  the SPLY and                  Yes - Target based
Target Revised When Not           understanding of long-        on the SPLY and root     Yes - Target based on
Achieved                          term goal                     cause analysis           the SPLY

Workers’ Compensation Costs
Linked to MVA Target
Achievement                       No                            No                       No




6
    The company uses Six Sigma methodology to identify root causes of accidents.
7
    The company is currently working on establishing national reduction targets.


                                                            6
MVA Reduction Target-Setting Process                                          HM-MA-09-002




          APPENDIX C: RESEARCH DOCUMENT ANALYSIS AND LISTING

We analyzed 13 documents related to the audit objectives dated from 1996 to 2008.
None of the 13 documents discussed MVA reduction target-setting processes.
However, two of the 13 documents considered the use of certain factors to measure a
transportation performance evaluation system (including safety). The factors included
geography, rural versus urban routes, and weather. One of the two documents stated
that transportation systems are comparable and that geographic and other differences
that exist should not impact the comparison. The second document, however,
disagreed and stated the differences in the factors should be considered when
measuring performance. These two documents also discussed the use of kilometer-
driven metrics.

The 11 remaining documents focused on safety topics ranging from evaluating
potentially insurable risks to accident prediction models. Seven of the 11 documents
discussed the use of root-cause analysis, including drivers’ behaviors (use of seat belts
and cell phones), geographical locations, and the weather. Two of the 11 documents
specifically mentioned a mileage driven metric. The two remaining documents
discussed the use of both root cause analysis and the mileage-driven metric.

We also noted that the Postal Service’s practice of using a mileage driven metric to
determine its MVA target is comparable to what numerous private companies depicted
in the documents. We further determined the use of this metric has not changed over
time.

References and Information Resources

1. A Good Example of Bad Transportation Performance Evaluation, Victoria Transport
   Policy Institute, November 18, 2008

2. Transportation Performance of the Canadian Provinces, Fraser Institute, October
   2008

3. Accident Analysis and Prevention: Highway Accident Severities, Science Direct,
   January 2008

4. Health, Safety, and Environment Goals, Eli Lilly and Company, 2008

5. Benchmarking Fleet Operations, Public Entity Risk Institute, December 2007

6. Fleet Safety Benchmark Report, Monsanto Vehicle Safety, Safety Management
   Solutions, October 2007

7. Corporate Responsibility Report, Pacific Gas and Electric Corporation, 2007


                                            7
MVA Reduction Target-Setting Process                                      HM-MA-09-002




8. Guidelines for Employers to Reduce Motor Vehicle Crashes, OSHA, last updated in
   2006

9. Fleet Safety at Abbott, OSHA, April 2005

10. Fleet Benchmarking 2004, Marsh and McLennan Companies, May 2004

11. Management of Work Related Road Safety, Entect UK Limited for the Health and
    Safety Executive and Scottish Executive, 2002

12. Preventing Worker Injuries and Deaths from Traffic-Related Motor Vehicle Crashes,
    Centers for Disease Control and National Institute for Occupational Safety and
    Health, July 1998

13. Company Vehicle Incident Reporting and Recording (CoVIR) (No.31), Department
    for Transport, 1996 and 1998




                                          8
MVA Reduction Target-Setting Process                      HM-MA-09-002




                      APPENDIX D: MANAGEMENT’S COMMENTS




                                       9
